                                         ?


MEMORANDUM
....-...--......       ..   ..........       . . . . . . . . . . . . . . . . . . . . . . . . . . .   ... --    ,    ...........................................   .-


DATE:              March 31,1998
                                                                                                               81




TO:




                   -=
FROM:                       pecial Agent

VIA:                                     peci Agent-in-Charge

RE:    - .         ~lose-out
                          -fo



                                                                                                              ,I
Background

In February 1998, an allegation was forwarded to Investigations from
regarding a potential theft of equipment and hnds on an NSF grant
awarded to the                                       in San ~ i e g o .
OADIGEO had !eceived a letter nom an attorney who represented a co- and the CO-PI'S
colleague on one o             NSF awards. The letter was the lawyer's attknpt "to repair
the damage done                                                     and colleabe]."
Apparently, the PI of the award, Dr.                             had accused :the co-PI and
the co-PI'S colleague of stealing                                       grant. The PI had
                                                                               !I
apparently sent letters with these allegations to various "individuals and institutions." The
letter indicated that the co-PI and colleague had "returned all the equipment  ll
                                                                                  and moneys .
when it became apparent that false accusations were being made regardinit their honesty
and integrity."                                                                11
                                                                                                              I
An Investigative file was opened based on the above notification to NSF of the defense
letter rebutting prior allegations.                                     i
                                                                                     i
                                                                                      I

Investigative Results                                                                i
                                                                                     I
                                                                                     '1
No evidence of significant loss to the government was substantiated. Although it appears
that there may have been an attempted theft of equipment on the part of the co-PI and the
                                                                          I1
co-PI'S colleague, the equipment itself was not funded by NSF, and it is ~~nclearwhether
the co-PI intended to complete the research pursuant to NSF award                    in
Argentina, prior to his being barred-fi-omthe research due to the attemptid theft. The co-
                                                                         li
PI and the co-PI'S colleague are presumed to be currently residing in Argentina.
                                                                                     I
Investigative Findings




                                                           wwer

                                                                                          -
Based on
provided by, and
University of            S

                                   colleague (and wife)                             to
       conduct researc on SF                      during the summer o       96. It was
       understood prior to their departure that the couple were to be t h q ~ r ~ e n t i n e
       coordinators on the project.2

2)     Because the PI,            was on travel in Europe at the &me,the couple
                                                                 1
              -
       were given                 to effectuate the preliminary research
                                                                 II      -
                                                                         in
                      as charged with transferring any necessary,equipment to
       Z~:;::'fmarch,      which he did.                                         1
3)     Upon                             fiom Europe, he noticed variou. pieces of
                   equ     en m ing from his laboratory. Upon questiomn
                                                                       ii
                   enied remembering the existence of any such equipmelt.




2
                             were both from Argentina, and had planned t o rbside there       4
                                                                                              +%.

                                           ave ever submitted Proposals to NSF.
                                                                             I
                                                                             I
                                                                                          b
5)     The equipment shipment was stopped midway to Argentina and tuhed back to
                                           included those expensive pi{ces of
                                           noticed were missing from l$s lab.
                                                     abscond with two
                                                                             tated that he
                                                                            ll
       was not concerned about this equipment, as it w o b s o l e f e e q u i p m e n t was
       not hnded by NSF.                                                    II
                                                                            i
                                                                            11
6)     Upon request by the Director's Office,                    all of thedhnds minus
       two round-trip airfares ($3,502 direct                   nd $700 fAr research
        xpenses and h n d transfers from Argentina to the United State

7)     These returned funds, totalin $13 100 were returned to the
       account nd-a           the-ccount        according to their resp tive
       contributions.                                                  11
                                                                            il
                                                                          il
                           tated that he accomplished the remainder of the,A                   5
8)
       project himself, during August-October 1996.                         11
                                                                            11




Conclusions
                                                                           il
Based on the above information analyzed, no significant findings of fraud, waste or abuse
of federal hnds is found, and this case is closed.                         11
